<html>
<title> - THE EMPLOYMENT SITUATION: MARCH 2011</title>
<body><pre>[Senate Hearing 112-15]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 112-15
 
                  THE EMPLOYMENT SITUATION: MARCH 2011

=======================================================================

                                HEARING

                               before the

                        JOINT ECONOMIC COMMITTEE
                     CONGRESS OF THE UNITED STATES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 1, 2011

                               __________

          Printed for the use of the Joint Economic Committee




                  U.S. GOVERNMENT PRINTING OFFICE
65-918                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7116011e311204020519141d015f121e1c5f">[email&#160;protected]</a>  

                        JOINT ECONOMIC COMMITTEE

    [Created pursuant to Sec. 5(a) of Public Law 304, 79th Congress]

SENATE                               HOUSE OF REPRESENTATIVES
Robert P. Casey, Jr., Pennsylvania,  Kevin Brady, Texas, Vice Chairman-
    Chairman-designate                   designate
Jeff Bingaman, New Mexico            Michael C. Burgess, M.D., Texas
Amy Klobuchar, Minnesota             John Campbell, California
Jim Webb, Virginia                   Sean P. Duffy, Wisconsin
Mark R. Warner, Virginia,            Justin Amash, Michigan
Bernard Sanders, Vermont             Mick Mulvaney, South Carolina
Jim DeMint, South Carolina           Maurice D. Hinchey, New York
Daniel Coats, Indiana                Carolyn B. Maloney, New York
Mike Lee, Utah                       Loretta Sanchez, California
Pat Toomey, Pennsylvania             Elijah E. Cummings, Maryland

                 William E. Hansen, Executive Director
              Robert P. O'Quinn, Republican Staff Director


                            C O N T E N T S

                              ----------                              

                      Opening Statement of Members

Hon. Robert P. Casey, Jr., Chairman-designate, a U.S. Senator 
  from Pennsylvania..............................................     1
Hon. Kevin Brady, Vice Chairman-designate, a U.S. Representative 
  from Texas.....................................................     7

                               Witnesses

Dr. Keith Hall, Commissioner, Bureau of Labor Statistics; Dr. 
  Michael Horrigan, Associate Commissioner for Prices and Living 
  Conditions, Bureau of Labor Statistics; and Mr. Philip Rones, 
  Deputy Commissioner, Bureau of Labor Statistics................     3

                       Submissions for the Record

Chart titled ``Monthly Change in Private Payrolls''..............    28
Prepared statement of Dr. Keith Hall, Commissioner, Bureau of 
  Labor Statistics, together with Press Release No. 11-0436......    29
Letter dated April 19, 2011, transmitting Commissioner Hall's 
  response to Representative Hinchey.............................    68
Prepared statement of Representative Kevin Brady.................    71
Chart titled ``Labor Force Participation Rate''..................    72
Chart titled ``An Exceptionally Weak Employment Recovery''.......    73
Chart titled ``Private Sector Jobs Increase When Private 
  Investment Increases''.........................................    74
Chart titled ``Increased Federal Spending Has Not Led to Private 
  Sector Job Creation''..........................................    75
Chart titled ``Forecast vs. Reality''............................    76
Letter dated April 19, 2011, transmitting Commissioner Hall's 
  response to Senator Casey......................................    77
Chart titled ``GDP Grows for Sixth Consecutive Quarter''.........    79
Prepared statement of Elijah E. Cummings.........................    80
Letter dated April 22, 2011, transmitting Commissioner Hall's 
  response to Representative Cummings............................    81


                  THE EMPLOYMENT SITUATION: MARCH 2011

                              ----------                              


                         FRIDAY, APRIL 1, 2011

             Congress of the United States,
                          Joint Economic Committee,
                                                    Washington, DC.
    The committee met, persuant to call, at 9:32 a.m. in Room 
106 of the Dirksen Senate Office Building, the Honorable Robert 
P. Casey, Jr., Chairman-designate, presiding.
    Senators present: Casey.
    Representatives present: Brady, Duffy, Amash, Mulvaney, 
Hinchey, and Cummings.
    Staff present: Will Hansen, Gail Cohen, Colleen Healy, 
Jessica Knowles, Andrew Wilson, Rachel Greszler, Sean Ryan, 
Jayne McCullough, and Ted Boll.

   OPENING STATEMENT OF HON. ROBERT P. CASEY, JR., CHAIRMAN-
          DESIGNATE, A U.S. SENATOR FROM PENNSYLVANIA

    Chairman-designate Casey. The Joint Economic Committee 
hearing will come to order. I know we have a number of members 
of the House who will be joining us, but they are voting this 
morning so we will welcome them as they arrive.
    I appreciate this opportunity to review the employment 
situation across the country. We are particularly happy that we 
have some good news to report, which we will review in a 
moment. But I do want to thank the members of the Committee for 
their work in preparing for this hearing, and for our witness, 
Dr. Hall; and also the continuing opportunity we are going to 
have on this Committee to examine not just the employment data 
but areas that we can focus on to create jobs, strategies to 
create jobs, and also to focus on important sectors in our 
economy like manufacturing and other indicators of our economic 
strength as we are recovering.
    I do want to thank Vice Chairman-designate Brady, 
Congressman from the State of Texas, who is working with us 
today to make sure that we focus on critically important issues 
that affect jobs.
    We do, as I said, have some good news to report. I know 
that Commissioner Hall will highlight this, but the report 
today shows that the economy added 230,000 private-sector jobs 
last month, making March the 13th straight month that we have 
employment gains in the private sector.
    Also, we gained 216,000 jobs overall, despite the loss of 
many government jobs. I wanted to point to one chart on my left 
that shows the upward trend in employment over the past 13 
months. In fact, during the last 13 months the economy has 
added 1.8 million private-sector jobs.
    That is good news, but it is not good enough. We have to 
continue to focus on ways to create jobs at a faster pace every 
month, not just one month, and not just two months in a row; we 
need to continue to move in the right direction.
    The overall unemployment rate dropped to 8.8 percent, so it 
has come down. That is down from the peak from October of 2009 
of 10.1 percent. But as I said before, the unemployment rate is 
too high and we have to focus intensively--and especially on 
particular demographic groups, whether it's veterans who have 
lost their jobs, very high numbers still for African Americans, 
for Hispanic Americans, and workers with a disability.
    And I also know that when Members appear today, some may 
not have a chance to do an opening statement, but I want to 
make sure that Vice Chairman-designate Brady has that 
opportunity when he arrives after voting.
    But I think we will get right to our witness. I want to 
introduce someone who has appeared before this Committee a 
number of times. He does not necessarily need an introduction, 
but I want to make sure that those who may not remember his 
background and are not familiar with his biography, to give you 
just a brief sketch.
    Dr. Keith Hall is the Commissioner of the Bureau of Labor 
Statistics for the U.S. Department of Labor--what we know as 
the BLS. BLS is an independent national statistical agency that 
collects, processes, analyzes, and disseminates essential 
statistical data to the American public, to the United States 
Congress, and to other federal agencies, state and local 
governments, business, and labor.
    Dr. Hall has also served as Chief Economist for the White 
House's Council of Economic Advisers for two years under 
President George W. Bush. Prior to that, he was Chief Economist 
for the United States Department of Commerce, and he also spent 
10 years at the United States International Trade Commission.
    Dr. Hall received his bachelor's degree from the University 
of Virginia; his M.S. and Ph.D. degrees in Economics from 
Purdue University.
    Before turning to Dr. Hall, just one brief interlude. 
Congressman Hinchey just arrived and, Congressman, I was just 
saying that some will have the opportunity to give openings 
depending on when they get here. But if you have any opening 
comments, I wanted to offer you that opportunity.
    Representative Hinchey. Well not really, no. I am anxious 
to hear what is about to be said, because we are dealing with 
an issue which is critically important for the future of this 
country, and also for the political operations in both the 
House and the Senate.
    And so I deeply appreciate the opportunity to be here with 
you. Thank you very much for setting up this very important 
hearing here, I appreciate you being here, and I am anxious to 
hear everything that you are going to say. Thank you, very 
much.
    Chairman-designate Casey. Thanks, Congressman.
    Dr. Hall.
    [The chart titled ``Monthly Change in Private Payrolls'' 
appears in the Submissions for the Record on page 28.]

  STATEMENT OF DR. KEITH HALL, COMMISSIONER, BUREAU OF LABOR 
   STATISTICS, U.S. DEPARTMENT OF LABOR; ACCOMPANIED BY: DR. 
MICHAEL HORRIGAN, ASSOCIATE COMMISSIONER FOR PRICES AND LIVING 
 CONDITIONS, BUREAU OF LABOR STATISTICS; AND MR. PHILIP RONES, 
        DEPUTY COMMISSIONER, BUREAU OF LABOR STATISTICS

    Commissioner Hall. Thank you, Mr. Chairman.
    Mr. Chairman, and Members of the Committee:
    Thank you for the opportunity to discuss the employment and 
unemployment data we released this morning.
    In March, nonfarm payroll employment rose by 216,000, and 
private-sector employment rose by 230,000. The unemployment 
rate was little changed at 8.8 percent; the rate has declined 
by 1 percentage point since November of 2010.
    Since a recent low point in February of 2010, nonfarm 
payroll employment has risen by 1.5 million. Private-sector 
employment rose by 1.8 million over the same period, an average 
of 138,000 per month.
    In March, job growth occurred in professional and business 
services, health care, leisure and hospitality, and mining. 
Manufacturing employment continued to trend up over the month.
    Professional and business services employment rose by 
78,000 in March. This industry has added 692,000 jobs since a 
recent low in September of 2009. In March, employment in 
temporary help services rose by 29,000. Temporary help services 
has added about a half million jobs since August of 2009.
    Employment in health care continued to rise in March. The 
increase was spread among several components, including 
ambulatory health care services, hospitals, and nursing and 
residential care facilities. Since the start of the recent 
Recession in December of 2007, health care employment has risen 
by 902,000, while total nonfarm employment has declined by 7.2 
million.
    The leisure and hospitality industry added 37,000 jobs in 
March. Growth in food services and drinking places accounted 
for most of the increase.
    Within goods-producing industries, mining employment rose 
by 14,000 in March, mostly due to an increase in support 
activities for mining. Since a recent low in October of 2009, 
mining employment has risen by 96,000.
    Employment in manufacturing continued to trend up in March. 
Factory job gains continued to be concentrated in durable 
goods, with over-the-month increases in fabricated metal 
products and machinery. Construction employment changed little 
over the month.
    Employment in local government continued to trend down over 
the month. This sector has lost 416,000 jobs since its 
employment peak in September of 2008.
    Turning to measures from the survey of households, the 
unemployment rate was little changed at 8.8 percent in March. 
The jobless rate has declined by one percentage point since 
November of 2010. Over that period, unemployment declined by 
nearly 1.5 million, and employment rose by 1.4 million, leaving 
the labor force nearly unchanged on net.
    In March, the labor force participation rate held at 64.2 
percent, and the employment-to-population ratio at 58.5 percent 
was little changed.
    The number of long-term unemployed remained high at 6.1 
million, or 45.5 percent of total unemployment. Over the month, 
the number of individuals who were working part-time, although 
they would have preferred full-time work, was 8.4 million, down 
from 9 million a year earlier.
    In summary, nonfarm payroll employment rose by 216,000 in 
March, and the unemployment rate was little changed at 8.8 
percent.
    My colleagues and I would now be glad to answer your 
questions.
    [The prepared statement of Commissioner Hall, together with 
Press Release No. USDL-11-0436, appears in the Submissions for 
the Record on page 29.]
    Chairman-designate Casey. Doctor, thank you very much.
    I wanted to ask you about, first of all, the sectors of our 
economy that we should be most positive about based upon the 
data. I wanted to get your perspective on, first of all, 
manufacturing, which is so essential to the strength of our 
economy.
    I just wanted to get your sense of how you compare this 
month's numbers not just with last month's but with what you 
have seen over, say, the last six months?
    Commissioner Hall. Sure. This month, manufacturing grew by 
about 17,000 jobs, which has continued a recent trend. We have 
had job growth in manufacturing. In fact, we have added about 
205,000 jobs in manufacturing since February of 2010, which is 
the employment trough.
    Chairman-designate Casey. And do you have a--I guess it is 
not in the nature of an opinion, but when you compare how we 
are doing overall with job growth this month, about 216,000, 
and the fact that the private-sector job growth has hit 230,000 
this month, 222,000 last month, are there any trends, or any 
insights that you can provide as it relates to the significance 
of those private-sector numbers, at least over the last two 
months?
    Commissioner Hall. Sure. Well we have had--for more than 
two months we have had pretty steady job growth. It has been 
around 135,000-140,000 a month. In the last two months it looks 
like we may be getting an acceleration in job growth, which 
would be a good sign.
    Chairman-designate Casey. Would you tell us, based upon 
your experience, how many months, when you see a number of 
months of consecutive positive job numbers, especially at what 
we are seeing, which is basically on average about 200,000 jobs 
added the last two months--192,000 and 216,000--how many months 
like that in a row would you like to see as evidence that we 
are growing and recovering at a pace at which we could fully 
recover? If you can understand my question. Would it be that we 
would need three months of positive job growth at that number? 
Or six months? Or how do you analyze that?
    Commissioner Hall. Sure. Well of course even one month, or 
two months of faster job growth is positive. I do tend to look 
at the data at about three-month segments. I think steady 
growth of three months does put you into another--you get a 
real picture, I think, of where you are. So three months, 
typically.
    But also if you look back to the trend further than that, 
we continue to have job growth. Again, that is positive. But 
like I say, three months is a good rule-of-thumb that I use.
    Chairman-designate Casey. How about the total number? When 
you look at 200,000 in each of these months, roughly, that is a 
good number. But of course I am trying to get a sense of the 
historical comparison between this two- or three-month period 
versus another two- or three-month period when we had a full, 
and maybe even more, robust recovery.
    Obviously I think we would prefer if it were 250,000 a 
month rather than 200,000, or even higher than that. Is there 
any way to analogize or to compare where we are now as compared 
to another three-month period that you can recall, or that you 
have data for?
    Commissioner Hall. I would say the last expansion after the 
2001 recession was not a strong expansion. And that averaged at 
its peak somewhere over 200,000. That was growth, but it was 
not as strong as it has been in some other periods.
    In the 1990s expansion, we frequently had job growth well 
over 300,000, 400,000 at times. So like I say, 200,000-plus is 
solid growth, but we could see more.
    Chairman-designate Casey. And I know my time is up, but I 
will come back to you about some of the demographic groups.
    Congressman Hinchey.
    Representative Hinchey. Thank you very much. Thank you for 
everything that you are doing in the context of leadership of 
this very important Committee.
    And thank you very much for everything that you were 
saying. We are very delighted to see the economic circumstances 
changing now in light of the fact that we had been experiencing 
an economic situation which was second only to the Great 
Depression. During the most recent recession, we saw the loss 
of more than 2 million jobs, something in the neighborhood of 
2.3 million jobs in.
    Now the situation is improving and changing. I know that 
you are analyzing this situation, but do you have any 
inclination to see what the main objectives have been, or 
rather what is the main driver of this economic growth?
    One of the things that we did over the course of the 
previous two years was pass a major stimulus bill, which 
injected a very significant amount of funding into the economy, 
which the economy had not seen in a long time.
    I would be very interested to hear what you think are the 
main elements of the promotion of this economic activity now, 
and the growing of these jobs?
    Commissioner Hall. Well, sure. Well this Recession has been 
remarkable in how broad the job loss was. So just about every 
industry, with maybe the exception of health care, lost 
significant numbers of jobs during this Recession. And the job 
growth now has been also pretty broad.
    Industries like professional business services, education 
and health, leisure and hospitality, and even manufacturing 
have all been growing since the trough. Financial activities, 
construction, are probably still struggling. They are not 
growing very much. And government is really the only sector 
that is losing jobs right now. It's primarily in local 
government.
    Representative Hinchey. Okay. Anything else?
    Commissioner Hall. No, I think that is about it. The job 
growth has been relatively broad. You know, the biggest drivers 
probably of the job loss have been construction and 
manufacturing, and it has been nice to see manufacturing job 
growth start up.
    Representative Hinchey. Yes.
    Commissioner Hall. But construction still remains pretty 
flat.
    Representative Hinchey. And what you were saying in your 
opening remarks were that there were significant improvements 
in the economy in the context of health care and education, 
things of that nature. What would you say about the prospects 
of cutting the funding for operations like health care and 
education by this government?
    Commissioner Hall. I would not want to comment on policy 
things like that. I stay away from that.
    Representative Hinchey. No, I understand that, but I was 
just trying to see if there might be something that you might 
say about it.
    In any case, this is something that I think we need to be 
deeply concerned about because it would be a deep mistake to 
reduce the funding for those important elements like education, 
and health care, as well as other activities which stimulate 
this economy--like transportation and things of that nature.
    In any case, thanks very much. Let me just ask you one or 
two other things, if I may, if there is time. The Recession 
hurt certain demographics more than others, as we know. For 
instance, as of February individuals without a high school 
diploma had an unemployment rate of 13.9 percent, while those 
with a college degree had an unemployment rate of 4.3 percent.
    Can you talk about which sectors of our economy typically 
hire individuals without a high school diploma? What has 
happened to those sectors during this Recession?
    Commissioner Hall. Well first let me confirm your picture 
of job loss by education. For those with less than a high 
school diploma, the unemployment rate remains high; it's at 
13.7 percent this month. Those with a bachelor's degree and 
higher, it's at 4.4 percent.
    This has been a typical recession in the sense that the 
group with the lower education have started with higher 
unemployment rates and they've had the unemployment rates go up 
by more than those with higher education.
    As far as the industry breakout, I am probably going to 
have to get back with you on that, about where the folks are 
distributed. I don't know that we have the data handy, but I 
can give you some idea of where the folks with less than a high 
school diploma, what sort of industries they are employed in.
    Representative Hinchey. Thank you very much.
    [Letter dated April 19, 2011, transmitting Commissioner 
Hall's response to Representative Hinchey appears in the 
Submissions for the Record on page 68.]
    Chairman-designate Casey. Thanks, Congressman.
    As I mentioned before, the House was voting and Vice 
Chairman-designate Brady is here now. I do not know how he 
could have voted and run that fast, but he made it here in 
record time. I want to turn to our Vice Chairman-designate for 
an opening statement, if he would like, and questions as well.

OPENING STATEMENT OF HON. KEVIN BRADY, VICE CHAIRMAN-DESIGNATE, 
                A U.S. REPRESENTATIVE FROM TEXAS

    Vice Chairman-designate Brady. Great. Well first I would 
like to congratulate Senator Casey on the Chairmanship of the 
Joint Economic Committee. I look forward to a productive 
working relationship with the Senator and to insightful 
hearings as we move forward in the new Congress.
    I would also like to welcome Dr. Hall and his staff back 
again. You have guided this Committee through many employment 
reports in the past. We appreciate the work you do and the 
explanation of the data that you provide.
    Today's employment report shows some positive signs. 
Everyone wants the economy to improve, particularly the labor 
market, and we are glad for the increases in jobs we are 
seeing. But looking at it closely, while there are job gains, 
the rate of job creation has not accelerated enough to keep up 
with the population growth and encourage all of the people who 
lost their jobs that they soon can find work again.
    It has been 21 months since the Recession ended, and we are 
still down 7.2 million nonfarm payroll jobs from when it 
started. The unemployment rate at 8.8 percent of course remains 
unacceptably high, but also is not telling us the whole story--
as I will explain in a moment.
    There have been fundamental disagreements about the proper 
role of government in facilitating an economic recovery between 
Republicans and Democrats and that disagreement continues even 
now, 39 months after the last recession started. Democrats, 
unfortunately, in Congress do not want to change course, but 
the federal spending spree has not been productive.
    It loaded up the Nation with debt so large the focus of 
business managers, investors, foreign governments, 
international institutions, and the public at large now is how 
the United States can meet its financial obligations.
    How high will taxes rise? And what form will they take? Is 
the government resorting to money creation to ease its interest 
and principal payments? Is there a chance it will default on 
its obligations?
    These questions--incredible as it may seem--are being asked 
of the United States Government. This is a big part of the 
reason why private investment and hiring have not resurged as 
they did in the past after similarly severe recessions.
    I want to show you a chart of payroll jobs. You know, as 
you can see we have not moved far from the bottom we hit 
shortly after the Recession officially ended, and the 
trajectory of job growth is far weaker than in past recoveries.
    I also want to show you a chart of the U.S. labor force 
participation rate. This chart shows the percentage of the 
population in the labor force as defined by the Bureau of Labor 
Statistics, and the percentage has shrunk.
    The chain of causation is clear: businesses fear the costs 
of an encroaching and intrusive government and are reluctant to 
expand sufficiently to create enough job openings for all of 
our workers. In turn, many people have simply left the labor 
force.
    The labor force now is smaller than 39 months ago, despite 
the fact that the working age population of 16 years and older 
has been increasing. This is happening in what used to be 
called the ``land of opportunity.''
    Republicans want to cut federal spending to relieve the 
pressure on the private economy. We must reassure the Nation 
and the world that the United States will bring its deficits 
and its debts under control, and it will not burden the economy 
with stifling taxes either.
    Increasing taxes to fund the expansion of government 
depresses the private economy's growth prospects over the 
longer term, and that has chilling effects on businesses and 
consumers right now.
    The Keynesian argument that increased government spending 
boosts aggregate demand and that a spending reduction would 
hurt the recovery falls apart completely when investors, 
businesses, and consumers focus on the increased future size of 
government, the permanently larger share of resources it will 
claim, and the myriad ways in which it will hamper private 
economic growth.
    The tepid job and employment growth so long after the 
Recession ended should convince everyone that high levels of 
federal spending are not what the economy needs.
    To reduce federal borrowing, we must cut federal spending 
not try to lock it in or raise taxes. The expected after-tax 
real rate of return drives business investment and hiring 
decisions. If we want businesses to offer hundreds of thousands 
of additional jobs month after month for years to come--which 
is what it will take to return the labor force and the 
unemployment rate to normal levels--then we must not burden 
expected returns with higher taxes, inflation, interest rates, 
and restrictive regulations. And if the private economy grows, 
there will be more money for government to spend as well, but 
let us not put that cart before the horse.
    With that, I yield back, Mr. Chairman.
    [The prepared statement of Representative Brady appears in 
the Submissions for the Record on page 71.]
    [The chart titled ``Labor Force Participation Rate'' 
appears in the Submissions for the Record on page 72.]
    [The chart titled ``An Exceptionally Weak Employment 
Recovery'' appears in the Submissions for the Record on page 
73.]
    [The chart titled ``Private Sector Jobs Increase When 
Private Investment Increases'' appears in the Submissions for 
the Record on page 74.]
    [The chart titled ``Increased Federal Spending Has Not Led 
to Private Sector Job Creation'' appears in the Submissions for 
the Record on page 75.]
    [The chart titled ``Forecast vs. Reality'' appears in the 
Submissions for the Record on page 76.]
    Chairman-designate Casey. We can proceed with questions. 
Vice Chairman-designate Brady, do you want to do questions now, 
or move to Congressman Duffy?
    Vice Chairman-designate Brady. Why don't I take a quick 
question. Can we talk about the participation rate really 
quickly, Commissioner Hall? Obviously it's always good to see 
the unemployment rate go down, at least in general appearances, 
but there is more to that story.
    There is no reason to celebrate a lower unemployment rate 
that is caused by more Americans leaving the workforce and 
fewer entering it. As we know long term, a smaller work force 
means millions of discouraged workers, lower output in the 
future, and a weak recovery. Those are not healthy signs.
    What can you tell us about the number of discouraged 
workers? What is the number of marginally attached workers? 
When can we expect to see the labor participation rate begin to 
go back up?
    Commissioner Hall. The number of discouraged workers is 
just a little under a million right now. And workers who are 
marginally attached--which includes discouraged workers, but 
workers of other types--is about nearly 2.5 million people. So 
those numbers are still fairly high.
    Our broadest measure of labor under-utilization that 
includes both marginally attached and people working part-time, 
that remains fairly high. It's at 15.7 percent, although it did 
go down 2/10ths of a percent this month.
    Labor force participation remains at a low level. It is 
still 64.2 percent. We have not seen big movement lately at all 
on the labor force. It has actually been fairly flat. But I 
would expect that if we do start to get strong job growth, and 
we get a little more confidence, we probably should start to 
see the labor force participation rate go up.
    Vice Chairman-designate Brady. Is the labor force 
participation rate critical for output for a sustainable 
recovery?
    Commissioner Hall. Yes. Absolutely.
    Vice Chairman-designate Brady. Any projections going 
forward? I know you are very careful about doing those things, 
but internally have you done any work on what we might see when 
people will start re-entering the work force?
    Commissioner Hall. I would say we are more in the mode of 
looking for signs that they are, rather than projecting. So we 
really do not--I really do not think that way very much.
    Vice Chairman-designate Brady. I understand. Construction, 
we lost some jobs last month, we had about 30,000 additional--
in manufacturing and construction--manufacturing did okay, 
17,000 new jobs; construction shrank. Any reasons for that in 
the data?
    Commissioner Hall. Well, no. Construction has remained 
pretty flat, and I think just historically what you would 
probably need to see with the construction is you would need to 
see new housing starts, and new home sales pick up, and pick up 
for a while before we start to see any significant change in 
the construction employment.
    Vice Chairman-designate Brady. Within manufacturing, what 
did you see?
    Commissioner Hall. In manufacturing we are seeing growth. I 
mean, 17,000 was not a lot, but there has been a trend of 
growth in manufacturing. And it is something we have not seen 
for a while, but you are right, it is not really strong; but it 
is positive growth. A lot of that has been in durable goods. So 
I would say, for example, the last recession we did not see any 
growth in manufacturing out of the last recession at all, so 
that is part of what makes this recovery so far different than 
the last recession.
    Vice Chairman-designate Brady. I understand.
    And, Senator Casey, we are pleased to be joined by one of 
our new Members from Wisconsin, Congressman Sean Duffy. You are 
chairing the meeting, but I just wanted to welcome Congressman 
Duffy to the Joint Economic Committee.
    Chairman-designate Casey. Thank you very much.
    Congressman Duffy.
    Representative Duffy. Thank you.
    Chairman-designate Casey. And welcome.
    Representative Duffy. I appreciate it. I have got to figure 
out where the ``talk button'' is here. I am new to the Senate.
    Commissioner Hall, good morning. I appreciate you coming in 
this morning. I just have a few questions.
    As I am looking at historical data in regard to downturns 
and then recoveries, usually there is symmetry or a correlation 
between the depth of the decline and then the strength of the 
recovery, whether it is a V-shaped decline we will have a V-
shaped recovery, or a U-shaped decline a U-shaped recovery.
    If you look at what has happened in this Recession, we have 
seen a pretty significant decline, but then a flat line really 
in regard to the recovery, which is not consistent with prior 
recoveries.
    Do you have any idea why that is taking place?
    Commissioner Hall. No, I really do not. I can say that 
there have been two schools of thought going into this 
recovery.
    The one is the folks who have observed what you have, that 
the deeper recessions have had stronger recoveries, the more V-
shaped. And those folks of course were optimistic that we are 
going to get a strong recovery.
    Then there are those who have pointed out that the last two 
recessions had very mild recoveries. But both of the last two 
recessions were also mild recessions, as well. So it has been 
one of the instances where nobody has known whether we just now 
have milder recoveries from recessions, that is the way the 
labor market has changed; or whether we will go back to the V-
shape where when we have a steep drop we have a steep recovery.
    Representative Duffy. And maybe I could throw some ideas 
out there. Because I am from a district in central and northern 
Wisconsin, and as I talk to job creators in our area I 
continually hear them talk about uncertainty in the 
marketplace. And I think if you look at what's happened in 
Washington in recent years we have done things that we 
traditionally have not done.
    With the new health care bill, I think if you are an 
employer that creates uncertainty in the marketplace. If you 
have a $14 trillion debt, and then this year we are projected 
to borrow $1.6 trillion. And then if you look at the 
President's budget, we are projected to borrow $1 trillion a 
year on average for the next 10 years. If you are a small 
businessman and you are looking at investing or growing your 
business, what I keep hearing is this potentially leads to much 
higher taxes, much less growth, and they are unwilling then to 
invest in the businesses.
    Or if you are a larger business and you can look anywhere 
in the world to invest, and you look at these massive debt 
charts in America, they go this has serious economic 
consequences in America, and they are choosing to invest 
elsewhere.
    I mean, do you have any ideas on what I am hearing in 
central and northern Wisconsin from our job creators?
    Commissioner Hall. I would probably stay away from cause-
and-effect, because we are very much a fact-oriented place. So 
I will beg off on sort of discussing why I think things are 
happening how they are happening.
    Representative Duffy. Let me, if I could do this, are you 
aware of any economic studies that show a correlation between 
excessive deficits and large debts and long-term unemployment 
conditions, a correlation between those two that you have seen 
in your studies?
    Commissioner Hall. Not really. I am not really familiar. I 
do not know that there is a consensus on any of that. That is 
not a thing that I have studied before in the past.
    Representative Duffy. Okay. I yield back my time.
    Chairman-designate Casey. Thank you, Congressman. 
Congressman Mulvaney.
    Representative Mulvaney. Thank you, Mr. Chairman. I 
apologize for being late. I think we just voted on--well, 
anyway.
    Mr. Hall, Commissioner Hall, I have very brief comments. I 
apologize for missing your testimony, and if these questions 
have been asked previously please let me know and I will be 
quiet and yield back my time.
    I look at these three graphs, and was looking at them 
yesterday as we prepared for this meeting, and I wonder, sir, 
if you are aware of what the unemployment regime was like, what 
the unemployment benefit regime was like during these last, or 
these three recessions that are set forth on this board--
specifically in 1981, 1982, 1973, 1975. Do you recall that off 
the top of your head, sir?
    Commissioner Hall. I really do not; I am sorry.
    Representative Mulvaney. Would it be fair to say that it 
was some place between 26 and 39 weeks? Because that is where 
it was during most of the last several recessions?
    Commissioner Hall. That sounds reasonable, but I really do 
not know.
    Representative Mulvaney. And it is probably also fair to 
say that unemployment in 1981-82, unemployment benefits did not 
extend for 99 weeks? Nor did they do that in 1973-75, because 
the 99 weeks that we are getting to now is unprecedented in our 
Nation's history, isn't it?
    Commissioner Hall. Yes, the long-term unemployed is really 
quite--it is unprecedented right now, the number of long-term 
unemployed.
    Representative Mulvaney. Correct. But also the benefits 
that we have extended is unprecedented? I recognize you are 
getting to my point, which is that I recognize that you all are 
not in the business of cause-and-effect looking forward; I am 
more interested, however, in possible correlations looking 
backward with the benefit of hindsight.
    And I am just asking you if you have seen any correlation 
between the length of benefits that we offer and the length of 
time that folks actually stay unemployed.
    Commissioner Hall. I am not an expert in that area. I do 
know that there has been some research that correlates when 
people return to work and UI benefits, that there tends to be a 
pickup in re-employment at the end of benefits.
    Representative Mulvaney. And also I think there are some 
studies that show that there is an increase in re-entrants into 
the market, folks that have been identified as actually 
dropping out of the job market do come back at the end of--once 
benefits go back to their ordinary lengths.
    All right, well thank you, Commissioner Hall. I look 
forward to your testimony in the future.
    Chairman-designate Casey. Thanks, Congressman. And, 
welcome. Thanks for taking the time to be here with us.
    Commissioner, I had some follow-up questions on the 
demographic breakdown. Even as we are happy about the fact that 
we are at 216,000 by way of an increase overall, and a 230,000 
increase in private-sector jobs, there are some demographic 
numbers which are pretty disturbing.
    I was looking at the number, for example, for veterans. Am 
I correct to say that unemployment among veterans is 9 percent?
    Commissioner Hall. Um----
    Chairman-designate Casey. I just want to make sure I have 
the right number.
    Commissioner Hall [continuing]. Sure. I believe that is 
correct. Yes, it is 9 percent.
    Chairman-designate Casey. So just for context, 8.8 percent 
unemployment overall; but 9 percent for veterans?
    Commissioner Hall. Yes, that is correct.
    Chairman-designate Casey. And would I be correct to say 
that so-called Gulf Era II Veterans, meaning Iraq and 
Afghanistan veterans face an unemployment rate of 10.9 percent? 
Is that right?
    Commissioner Hall. That is correct.
    Chairman-designate Casey. So substantially higher than both 
veterans overall, almost 2 points higher, and significantly 
higher than the overall unemployment rate. So I think we have 
got to pay particular attention to those veterans coming back 
from overseas. That is intolerably too high, 10.9.
    I was also looking at the African American unemployment 
rate, which is--again I just want to make sure I am right--15.5 
percent? Is that right?
    Commissioner Hall. That is correct.
    Chairman-designate Casey. And that number is almost double, 
more than double, I should say, from the African American 
unemployment rate of 7.7 in August of 2007. That is the number 
that I have.
    Commissioner Hall. Yes, that sounds right. It was 9.0 
percent at the beginning of the Recession, but that would be 
right back to August.
    Chairman-designate Casey. So 15.5 percent unemployment for 
African Americans. For Hispanic workers, the rate is 11.3? Is 
that correct?
    Commissioner Hall. That is correct.
    Chairman-designate Casey. And for workers with a 
disability, 15.6 percent? Is that correct?
    Commissioner Hall. We will get the number here.
    Chairman-designate Casey. Okay.
    Commissioner Hall. You have been right so far, so I am----
    Chairman-designate Casey. I am just trying to make sure we 
get the record right. But in particular, is there anything you 
can tell us about--based upon your knowledge of the labor 
market, based upon trends you have been able to both identify 
and analyze over the years, and even more recently, is there 
anything you can tell us about those particular demographic 
categories, why they are that high? Or whether these numbers 
are typical for a time of recession and then recovery? Or maybe 
there is no conclusion you can reach based upon the numbers 
only?
    Commissioner Hall [continuing]. Sure. It is absolutely true 
that the unemployment rates for these groups start out higher 
than other groups, and in recessions they go up by more. So 
they are hit more by recessions.
    This Recession has been no exception. They have gone up 
quite a bit. As you mentioned, for example, African American 
going from 9.0 percent to 15.5 percent is a very large 
increase.
    As far as why, I do not have great insight as to why that 
happens, but it does happen. And it is a similar pattern I 
think as some other groups.
    Chairman-designate Casey. Do you have any data that 
compares, for example, if we just take two or three numbers, 
the African American number at 15.5 and the Hispanic worker 
number at 11.3, any way to compare those two numbers in 
particular to a comparable time period, say in the 1990s as we 
were coming out of a downturn then? Or maybe even 2001-2002? Is 
there any way to compare those, whether 15.5 is substantially 
higher for African Americans at a comparable time, or not?
    Commissioner Hall. Right. We do not have a time series for 
that group that goes back quite that far, at least with us. We 
could probably follow up on that. But the number of 15.5 
percent I am sure is a very high rate, but we can follow up 
and----
    Chairman-designate Casey. Yes, that would be great for the 
Committee, if you can just do kind of a comparison----
    Commissioner Hall [continuing]. Okay.
    Chairman-designate Casey. Because anyone can tell that it 
is very high. I am just kind of curious about the historical--
oh, you might have something?
    Commissioner Hall. Okay, actually I do have an answer. We 
had a table I did not realize we had. This is a very high rate. 
This is a higher unemployment rate than the last recession, or 
the 1991 recession. The last time it was this high for African 
Americans, it was in the early 1980s it looks like. So this is 
a very high unemployment rate.
    Chairman-designate Casey. Thank you. I am over time.
    Vice Chairman-designate Brady.
    [Letter dated April 19, 2011, transmitting Commissioner 
Hall's response to Senator Casey appears in the Submissions for 
the Record on page 77.]
    Vice Chairman-designate Brady. Thank you, Chairman.
    We talked a moment ago about the unemployment rate going 
down, but principally because fewer people are in the workforce 
and many have left it.
    We have an honest disagreement in Congress about what the 
role of federal spending is in our economy and its recovery. 
You know, following the numbers, I know after we spent some 
$800-and-some billion, we have 2 million fewer workers today 
than when the Stimulus began.
    The unemployment rate was predicted to be 6.8 percent this 
month; we are off by a mile. And many of the economists who 
were saying don't reduce any spending in Washington, today are 
the same ones who like Mark Zandi predicted that by the end of 
2010 we would see 4 million new jobs. We actually had 3.3 
million fewer. He was off by 7 million jobs.
    The Joint Economic Committee took a look for the last 40 
years, at my request, at the relationship between federal 
spending and job creation in the private sector along Main 
Street. This chart identifies it. The black line is federal 
spending; the darker blue line--remind me to do a different 
color on that one--is private payroll employment. Not 
government jobs, jobs along Main Street.
    What you can see is there is no correlation between the 
two--actually, I am wrong. There is a negative correlation. For 
each of the four decades, as government spending grew jobs 
along Main Street actually shrunk.
    In the next chart, though, it shows sort of a different 
story. Over the last 40 years we tracked one key indicator. 
Along with workforce participation and output, the key 
indicator is private investment, business investment: companies 
that buy new buildings, new software, new equipment.
    As you can tell, there is a very high correlation. When 
businesses, large and small, buy buildings, buy equipment, buy 
software to go along with that new technology, jobs along Main 
Street grow.
    As we look forward from here, in looking at the data that 
you have, what indicators are you following that indicate where 
and at what speed private business investment is restoring, is 
picking up, is still fairly flat, where is it in America today?
    Commissioner Hall. I do not know that--I do not spend a lot 
of time looking at leading indicators, because we are not 
trying to forecast. But I will say such things as hours worked, 
and things like that, give us some idea of future job growth 
and future investment levels. In the data, things like 
temporary help tends to come back quicker than other types of 
jobs.
    Those are the sort of things that tend to be sort of 
leading indicators of investment and job growth.
    Vice Chairman-designate Brady. Are there any sectors that 
would reflect--obviously new buildings, you are looking at 
construction, new equipment you would be looking at the more 
durable goods, correct? The larger types of equipment? And new 
software? Are there within those sectors signs we need to be 
following?
    Commissioner Hall. Well I do think the equipment and 
software investment, out of the GDP numbers, does track pretty 
well with payroll jobs. And if that tends to get out ahead of 
payroll jobs, it shows up in productivity gains but it also 
signals sometimes future job growth.
    Vice Chairman-designate Brady. How many jobs are we short 
of the pre-Recession level right now?
    Commissioner Hall. We are down about 7.3 million jobs since 
January 2008.
    Vice Chairman-designate Brady. How large would the monthly 
job gains need to be over the next 18 months for employment to 
return to that level, to the pre-Recession level?
    Commissioner Hall. I think we are looking at--sorry, I am 
doing my math here; excuse me--I guess we are looking at 
403,000. Does that sound about right?
    Vice Chairman-designate Brady. It would probably need to be 
higher than that.
    Commissioner Hall. Is it higher than that? Okay.
    Vice Chairman-designate Brady. That is my back-of-the-
envelope estimate. If we continued around 200,000 or so job 
gains per month, how long will that take for us--my gut feel is 
around 5 years at that level. Your thoughts?
    Commissioner Hall. I have not done that calculation, but if 
you are talking about something like 2.5 million a year, you 
are talking about, well, certainly 36.3 months to recover at a 
rate of 200,000 per month.
    Vice Chairman-designate Brady. What monthly job gains--we 
sort of have an indicator, and I am running out of time, how 
much job gains a month is needed just to keep up with the 
population growth? We are often asked that question.
    Commissioner Hall. Yes, that seems to vary over time. I 
would say right now probably at least on the order of 130,000-
140,000 jobs a month just to maintain, with the population 
growth.
    Vice Chairman-designate Brady. Okay, thank you.
    Thank you, Mr. Chairman.
    Chairman-designate Casey. Thank you, Congressman.
    And Congressman Hinchey.
    Representative Hinchey. Thank you, very much.
    We know what the situation is, how bad it has been, how 
much employment has declined, and how it is now showing 
indications of improvement as a result of a number of 
initiatives by this Congress. And this chart here is very 
illustrative. It shows the deep drop in employment, and the 
increase in employment as a result of the activities that were 
taking place over the course of the previous two years.
    I want to talk about manufacturing employment which 
increased for the fourth straight month, as employers added 
33,000 jobs in February. Fortunately, the number of 
manufacturing jobs has increased by 186,000 since January of 
2010. This is a turnaround, a dramatic turnaround, from the 2.3 
million jobs that were cut during the deep Recession.
    Can you tell us, what is the future of the manufacturing 
sector? What do you anticipate will be the most influential 
policies that will affect the manufacturing sector?
    Commissioner Hall. Well, you are getting into two areas I 
try to avoid. One is forecasting; the other is policy. I will 
say, though, that the last recession we lost 3 million 
manufacturing jobs and gained none of them back. This Recession 
we lost another 2 million manufacturing jobs, and we are 
starting to gain some of them back. We are not anywhere near 2 
million back, but we are gaining some back. And that has not 
happened for a few recessions, a couple of recessions.
    Representative Hinchey. Yes, well what do you anticipate 
will be the most influential policies that will affect the 
manufacturing sector? What do you think of some of the things 
that are trying to be done now, will have a positive or 
negative effect?
    Commissioner Hall. I don't think I would want to comment on 
likely impact of policies, I'm sorry.
    Representative Hinchey. Okay. Over 44 percent of the 
unemployed are considered long-term unemployed, meaning that 
they have been out of work for 27 weeks or more.
    Nearly 73 percent of the long-term unemployed have been 
unemployed for a year or more. What do you think is the 
reasoning behind why so many of our unemployed have been 
unemployed for a year or more? Do you think we are facing a 
skills mismatch where workers do not have the skills of a 
changing economy, that they have not been prepared for?
    Commissioner Hall. In terms of what the data shows, the 
number of long-term unemployed during the most recent expansion 
after the 2001 recession, it never went down very much. The 
expansion after 2001 was not a strong expansion, and normally 
the long-term unemployed goes down a lot more than it did 
during this expansion.
    So the first thing that is a contributor to this is the 
number of long-term was already high when this Recession 
started. And the second thing is, this was a very deep and a 
very long Recession, so it really added to that. And those two 
things made the number at an unprecedented level. It is 
extremely high.
    I do not know. I do not know what sort of issue there is 
with job matching, job mismatching. I would say that that is 
certainly something that is going to be of great interest as 
this expansion goes forward as to how the long-term unemployed 
get re-employed, and whether there is an issue with job 
matching or not.
    Representative Hinchey. Well based upon your experience, do 
you come to the conclusion that intelligent economic investment 
by the government has positive effects on the economy?
    Commissioner Hall. I think I will not comment on----
    Representative Hinchey. You will pass on that one?
    Commissioner Hall. Yes.
    Representative Hinchey. Mr. Rones, or Dr. Horrigan, any 
indications of anything on any of the questions that we have 
asked?
    Mr. Rones. No. I think you will be hard-pressed to find 
someone from the statistical community willing to comment on 
policy. I think it is in everyone's interest that the reality 
and the perception is that the statistical community, the 
federal statistical community, is really separate from the 
policy issues. So I think Mr. Hall speaks for--Dr. Hall speaks 
for all of us in that.
    Representative Hinchey. Well, no, I appreciate, because we 
have done this on a number of occasions in the past--I 
appreciate how you separate the logic of how things can be 
improved, and base all of your attention on what the 
circumstances are, what the facts are, but not how they 
arrived, and what we might do to make them better.
    But nevertheless, we continue to just keep asking questions 
like that to see if there might be something that you could 
provide that might be insightful. In any case, I appreciate the 
responses that you gave to these questions.
    Thanks.
    Chairman-designate Casey. Commissioner, if you and your 
team were not so disciplined you could make big news here 
today, but I know you----[Laughter.]
    Are doing your job.
    Congressman Amash.
    Representative Amash. Thank you, Mr. Chair.
    Commissioner Hall, long-term unemployment is costly both 
for individuals who lose valuable skills and experience, as 
well as the government, which is now providing unemployment 
insurance benefits to workers for up to 99 weeks.
    What impact does long-term unemployment have on workers' 
future employment prospects?
    Commissioner Hall. Well that is one of those areas where 
the economic research is pretty clear that the longer somebody 
is unemployed, the harder it is for them to become re-employed. 
That is why I think, at least for me, one of the absolutely 
most important things to watch coming out of this Recession is 
what happens to the long-term unemployment because it is at a 
very high level.
    Representative Amash. And when unemployment benefits run 
out, what typically happens to the unemployment rate?
    Commissioner Hall. I am not sure that I necessarily see a 
big impact on the unemployment rate when those numbers work 
out. People are more likely to stay in the labor force when 
they are receiving benefits, so there may be some issue where 
people stop looking once their benefits run out, so that may 
have an impact on the labor force. But it's not been clear, at 
least in this data yet, that that is having an impact. It has 
not been in the past.
    Representative Amash. Thank you. When arguing for the 
Stimulus, the President's economic advisors issued a report 
projecting the likely effects of unemployment and output with 
and without a Stimulus similar to that which eventually passed.
    The President's advisors projected that the unemployment 
rate would be about 6.8 percent today if Stimulus was passed, 
and about 8.2 percent if Stimulus was not passed. What is the 
unemployment rate today?
    Commissioner Hall. It is 8.8 percent.
    Representative Amash. And the President's advisors 
projected total payroll employment at the end of 2010 would be 
about 138 million with Stimulus and about 134 million without 
Stimulus. What was the level of payroll employment at the end 
of 2010?
    Commissioner Hall. Let's see. How about if I tell you 
January. I've got that one handy. It's 130,328,000.
    Representative Amash. So that is lower than the President's 
estimates?
    Commissioner Hall. Yes.
    Representative Amash. Massive increases in Federal 
Government spending have been aimed at increasing employment. 
Can you reconcile the poor job market with the effects of the 
spending?
    Commissioner Hall. I would not speculate on that.
    Representative Amash. Are there indications that private 
employers are wary of hiring new workers, given the 
uncertainties surrounding the new health care entitlement and 
the looming U.S. fiscal crisis?
    Commissioner Hall. I do not have any view as to why hiring 
may be slower.
    Representative Amash. So you cannot speculate on--is it 
possible that the huge amount of spending and the country's 
indebtedness has been counterproductive to job creation?
    Commissioner Hall. I just would not want to comment on 
that.
    Representative Amash. Okay. The Recession has been 
characterized by a large exit of workers from the labor force. 
The labor force participation rate has dropped nearly 2 
percentage points since the Recession began. Is the absolute 
number of workers in the labor force smaller now than before 
the Recession? And by how much?
    Commissioner Hall. In terms of payroll jobs we are down by 
almost 7.3 million payroll jobs.
    Representative Amash. And why have workers left the labor 
force?
    Commissioner Hall. Oh, I'm sorry. The question was a labor 
force question?
    Representative Amash. Yes.
    Commissioner Hall. I guess it is various reasons. This is 
part of what always happens during recessions. The unemployment 
rate goes up and, to some degree, that does not tell you 
everything that is going on in the labor market because lots of 
people dropping out of the labor force does not show up in the 
standard unemployment rate.
    The labor force level is about a half a million below what 
it was before the Recession started. That is despite the 
population increase.
    Representative Amash. And what can you tell us about 
workers re-entering the labor force?
    Commissioner Hall. Let me--we will pull up some data here. 
[Pause.]
    Yes, the levels are still low, people who are coming from 
unemployed to employed. That still has not picked up much--in 
and out of the labor force, that is still at a fairly low 
level. It is well below prior to the Recession.
    Representative Amash. Thank you. I see my time has expired. 
Yield back.
    Chairman-designate Casey. Thank you, Congressman.
    Congressman Duffy.
    Representative Duffy. Thank you. Commissioner, just to 
follow up on some of your points, I think a lot of people are 
pleased that we have a report of, what, 216,000 jobs this 
month. But you indicated with regard to the chart that is up 
here with labor force participation rates, that it happens in 
all recessions. And I would agree with you.
    But also when we see this decline, and then we are this far 
into the Recession, or this far into job growth, do we not 
usually see greater participation? Don't we see these rates 
actually rise in the recovery?
    Commissioner Hall. Yes, I would expect that we would at 
some point see that start to rise in a recovery. It happens 
every recovery.
    Representative Duffy. Right. But isn't this a sign that 
there is a great deal of weakness in the marketplace right now 
in regard to jobs, when more people are not coming back into 
the marketplace to seek employment? That would be a leading 
indicator, potentially, of the strength of the market?
    Commissioner Hall. I would say that is true. I would say 
that seeing people start to re-enter the labor force would be a 
sign of growing confidence that job growth is going to pick up, 
and we do typically see that at some point during recoveries.
    Representative Duffy. But we are not seeing it right now?
    Commissioner Hall. Not yet.
    Representative Duffy. Which, if we are concerned about 
putting our people back to work, that would give all of us 
concern right now? Is that right?
    Commissioner Hall. Yes, well certainly we would like to see 
that.
    Representative Duffy. Just in regard to long-term, the 
long-term unemployed, there is a concern about that. Just so I 
get this right, if you are out of the work force for several 
years, you potentially lose skills? Is that right? And it is 
harder to get those who have been long-term unemployed back 
into the work force? Is that right?
    Commissioner Hall. I think that is right. You know, a lot 
of it probably depends on why people have been unemployed for a 
long-term time period. Obviously some percentage of them are 
folks whose skills are no longer consistent with industries 
that have strong job growth.
    This time, the number of long-term unemployed is so high I 
would suspect that a large number of the long-term unemployed 
have different characteristics than in the past; that their 
skills may not have eroded; it just may be that we have had a 
very weak labor market.
    Representative Duffy. And I guess my point is leading up 
to, you know I think all of us would like to--if you lose your 
job, we want to help people out. I think we all agree in an 
American safety net. But when you look at extending 
unemployment benefits for a great length of time, would it be 
your position that that can encourage people to stay out of the 
job market until those benefits run out? And then are we really 
doing a service to those who we are actually trying to help? Or 
are we doing a disservice with the lengthy extension of 
unemployment benefits?
    Commissioner Hall. I would not want to comment on the 
impact of something like that. I just don't know.
    Representative Duffy. Okay. Well but it is fair to say that 
with regard to long-term unemployment benefits, people will 
stay unemployed until their benefits are about running out, and 
then they will get back into the job market?
    Is that a fair assumption of what happens?
    Commissioner Hall. Well in the past statistically that has 
shown up in research. There have been questions about why that 
is, but that has shown up in research in the past.
    Representative Duffy. And there is also a correlation that 
the longer you stay out of the marketplace the harder it is to 
find a job that is equivalent to the one you had before you 
left the marketplace?
    Commissioner Hall. That is correct.
    Representative Duffy. And so is it fair then to say there 
is a correlation between long-term unemployment benefits, 
people staying unemployed for a long period of time, and the 
difficulty there is for them to get back into the marketplace?
    Commissioner Hall. I am not sure I would draw that 
connection.
    Representative Duffy. Okay. I have nothing further. Yield 
back.
    Chairman-designate Casey. Thank you, Congressman.
    Commissioner, you are really staying on your job here. We 
talked earlier about some of the difficult numbers here for 
large segments of the American people. I mentioned before still 
high numbers for African Americans, for veterans, and for 
Hispanic workers. So we want to balance the positive aspects of 
these numbers overall with the difficulties many people are 
still having.
    I did want to turn to another chart. Maybe we could just 
move to the GDP chart, to walk through some of these numbers.
    What this chart depicts--and the source that I am going to 
read, this chart was prepared by the Joint Economic Committee 
staff based upon data from the Bureau of Economic Analysis, and 
I may have a question that gets to Commissioner Hall's work and 
his team--but just to review what it depicts, it is GDP growth 
for the sixth consecutive quarter. Percent change in real GDP 
from the 4th quarter of 2007 to 4th quarter of 2010.
    Obviously at the end of--or I should say, on the left-hand 
side--you have negative 4.0 in the 3rd quarter of 2008; 
negative 6.8 in the 4th quarter of 2008. So the last two 
quarters of 2008, you have negative growth.
    And then you move to the first quarter of 2009, which is 
when you get into the blue color there, the 4.9 percent, the 
negative 4.9 percent in early 2009. I would note for the 
record, there have been a lot of references by our colleagues 
here to the Recovery Act and other strategies put in place by 
the Administration, and a lot of votes by Democrats, I might 
add, that as President Bush was leaving office in the early 
part of 2009, President Obama is coming into office, you have 
basically two quarters which are negative, -6.8 in the end of 
2008; -4.9 in the first quarter of 2009.
    Then of course you see a much-improved number, the -.7 in 
the second quarter of 2009. Third quarter 2009, 1.6 in 
positive. So basically it took all those quarters to get into 
positive territory. You had to go from the second quarter of 
2008 to the third quarter of 2009 to get it back into positive 
territory. Fourth quarter 2009, 5.0 on the plus side. And then 
every quarter since then in 2010 in positive territory.
    I would ask you this. When people see a set of data like 
that, they say, okay, you are getting growth. You are getting 
positive GDP growth quarter after quarter, which is good news. 
But, they say, where are the job numbers to reflect that? And I 
would ask you this about one theory, and I know you cannot 
endorse or speculate on theories, but one theory is that one of 
the basic reasons why you are not seeing nearly enough job 
growth, even though you are getting positive GDP growth, is 
because workers and businesses are becoming both more 
efficient--well, maybe not ``both''--but one or the other, 
either more efficient or more productive, which may go hand in 
hand. Anything you can say about average hours per week now, 
this month or the most recent quarter, versus another period, 
say in 2008 or 2007, anything you can add to that about average 
hours per week?
    [The chart titled ``GDP Grows for Sixth Consecutive 
Quarter'' appears in the Submissions for the Record on page 
79.]
    Commissioner Hall. Sure. We will pull some data up. I can 
talk about the GDP and payroll jobs, if you like, a little bit.
    Chairman-designate Casey. Sure.
    Commissioner Hall. As well, more broadly. It is typically 
the case that GDP starts to grow out of a recession in advance 
of job growth.
    Chairman-designate Casey. Good point.
    Commissioner Hall. That is typical. This Recession, it was 
about an 8-month lag between the end of the Recession and when 
we started to get job growth. That is not atypical. In fact, 
that is faster than the last couple of recessions.
    Chairman-designate Casey. Let me just interject for a 
second. Just so we have a point of reference, technically--and 
we know how many people feel about this--but technically the 
Recession ended when?
    Commissioner Hall. In June of 2009.
    Chairman-designate Casey. Okay.
    Commissioner Hall. Yes, we have not seen a lot of movement 
in the hours worked, average weekly hours, all employees. That 
has actually been pretty flat now for quite awhile. We really 
have not seen a big pick up at all since the Recession started.
    Chairman-designate Casey. So that has been flat?
    Commissioner Hall. Yes.
    Chairman-designate Casey. Okay. And typically would you see 
a correlation between that number, average hours worked per 
week, going up in a further increase in jobs?
    Commissioner Hall. Yes, typically you would. In fact, 
typically that would give you some indication that the labor 
market is starting to tighten up, and you are going to see job 
growth. So it is a little bit interesting that we are seeing 
the job growth occur without having the hours go up.
    Chairman-designate Casey. Okay. I know I am over time, but 
Congressman Mulvaney, did you want a second round?
    Representative Mulvaney. Very briefly, Mr. Chairman, if I 
may.
    Mr. Hall, I appreciate your discipline, and for someone who 
has only been here a couple of months it is actually kind of 
refreshing to actually see somebody just want to answer 
questions as opposed to sit up here and letting us testify. So 
I am going to do something probably unheard of in this 
environment and actually ask you questions that I do not know 
the answers to in advance.
    Do you all break these things down by different segments? I 
am particularly interested in the job growth, or lack of it, 
within small business. Do you have any information that you 
could provide us on that?
    Commissioner Hall. Yes, actually we do. It is not part of 
this data release, but we do have a couple of different surveys 
where we do look at job growth by firm size, or establishments.
    Representative Mulvaney. Recognizing that you do not have 
it immediately available to you, what can you tell us about job 
growth within the realm of small business?
    Commissioner Hall. Okay. I think one of the ways this 
recession has stood out compared to other recessions is the job 
loss has been very broad across all sized firms.
    For example, in the last recession in 2001 the job loss 
there was focused in large firms. This recession has been much 
more even. We have had a lot more job loss in smaller firms 
than we have in past recessions.
    Now in terms of the recovery so far, I think there has been 
a little stronger recovery in the larger firms. But we are 
still not seeing a lot of job growth in some of the smaller 
firms.
    Representative Mulvaney. To what would you attribute that? 
Again, I am not asking for policy; I am just asking, based upon 
the previous recoveries that you have seen, why would you think 
that small business--to me, for example, let me tell you why I 
ask the question.
    It strikes me, having been involved in primarily small 
business but also familiar with large businesses, that small 
business is able to react a little bit more quickly, especially 
in an upturn. They see opportunities a little bit more quickly 
and are a little bit more nimble from an organizational 
standpoint.
    So am I wrong about that? Or is there something different 
here? Why do you think we are seeing a situation where small 
businesses are slower to return to the job creation than larger 
businesses?
    Commissioner Hall. I will say what I think is the most, one 
of the most important characteristics of this recession 
compared to other recessions. In fact, I would say that we were 
in a mild recession, maybe even borderline not a recession, 
until the credit market lockup, until the financial market just 
locked up credit markets.
    And that coincided with a real drop off in new-firm 
creation, which is in large part small firms, and sort of 
establishment deaths, firms going out of business. So that is 
one of the most notable things, that the credit markets have 
been really involved in this recession.
    And that is sort of consistent with the idea that the 
smaller firms have been harder hit, and perhaps--I am not sure 
why they are slower to recover, I do not really follow the 
credit markets that closely----
    Representative Mulvaney. No, I see where you are going. It 
actually makes some sense. So what I can divine from that is 
that small businesses rely probably more heavily on the overall 
credit markets. It is harder for them to raise credit.
    Commissioner Hall. Yes.
    Representative Mulvaney. And if the credit markets remain 
tight, it might be possible for a larger business to gain 
access to the credit market, but harder for small business. And 
that might explain why small businesses are slower to create 
jobs in the recovery.
    Commissioner Hall. It might.
    Representative Mulvaney. Let me ask you the same question, 
very briefly. I have only got a minute-and-a-half. We hear a 
lot about green jobs, and the green economy. Do you break it 
down by that as well?
    Commissioner Hall. We have not in the past. But in fact we 
are in the process of doing that. We actually have a new 
initiative where we are--we have done a fair amount of research 
in defining ``green jobs,'' and we will start collecting data 
on that in fact later this year.
    So that next year we will in fact start producing some of 
this same data we are seeing right now, but broken out by 
industries that are primarily producing green products.
    Representative Mulvaney. Thank you, Doctor. Thank you, Mr. 
Chairman, I yield back the balance of my time.
    Chairman-designate Casey. Thanks, Congressman.
    Congressman Cummings.
    Representative Cummings. Thank you very much, Mr. Chairman.
    Commissioner, it is always good to see you, and 
particularly good to see you when you bring good news.
    I want to just pick up on where my colleague left off just 
a moment ago. A lot of people seem not to fully appreciate the 
lock up of the credit market and how it does affect small 
businesses big time.
    In my District, a few months ago we had small businesses of 
all kinds come together and talk to the Federal Reserve. And 
what they said was: We have opportunities, but we cannot get 
lines of credit. Our lines of credit have been torn down, and 
we do not have them.
    And so that is very, very significant. And I think the more 
we can open up those lines of credit, the better off folks will 
be. Because, again, without a line--I mean, I ran a small 
business for 15 years--without a line of credit, and it could 
be for only $50,000, but it would make a big difference.
    Dr. Hall, I wanted to ask you, do you see the unemployment 
rate continuing to decrease in the near term?
    Commissioner Hall. I would not want to speculate. I mean, 
we have been on a nice trend here where the unemployment rate 
has dropped and now that drop has held. Obviously I don't know, 
going forward.
    Representative Cummings. All right. Well let me ask you 
this: What factors, in your opinion, are currently the biggest 
drivers of job creation? I mean, looking at your stats, I know 
you look at trends and that kind of thing.
    Commissioner Hall. Sure. You know, we are getting job 
growth that is reasonably broad. You know, more than a half of 
the industries are now adding jobs rather than losing jobs. We 
have been at that for a while. So it is fairly broad.
    It just has not--we have not had it in every industry. 
Construction and financial activities have been kind of flat, 
and government has been declining. But everything else has had 
essentially job growth throughout. So it has been pretty broad.
    Representative Cummings. Despite the steady job figures and 
the positive economic indicators, other indicators present a 
worrisome picture, Dr. Hall. For instance, a recent Reuters-
University of Michigan survey shows a 10 percent drop in 
consumer confidence last month, the 10th largest drop on 
record.
    An editorial by former Labor Secretary Robert Reich 
explains that this drop is attributable to a number of factors, 
including rising food and fuel prices, as well as expectations 
of fewer jobs and lower wages in the months ahead.
    Theoretically, interconnectedness of consumer confidence 
and employment levels can lead to a somewhat self-fulfilling 
prophesy. If consumers are unwilling to spend money, the 
economy slows leading to fewer jobs, thereby further depressing 
consumer confidence.
    However, is consumer anxiety about fewer jobs and lower 
wages appropriate? And are they right to feel anxious? And I 
know you do not like to give opinions, but, you know, help me.
    Commissioner Hall. I do not know if they are right or not. 
You know, this is a----
    Representative Cummings. Well I am looking at the data. 
Looking at the data, if it were you, would you feel anxious? 
Based upon the data that you collect?
    Commissioner Hall [continuing]. I would say we are down a 
lot of jobs still since the Recession started. The unemployment 
rate is very high. Labor force participation is low. So that is 
plenty to worry about.
    Representative Cummings. Moreover, what impact, if any, do 
you believe that this drop in consumer confidence will have on 
job creation in the months ahead?
    Commissioner Hall. I think there the real question is will 
the consumer confidence lead to lower consumer spending. It 
does not always happen. Consumer confidence can fluctuate, and 
the real issue would be does it lower spending? And if consumer 
spending lowers, then it is going to slow down the economy. 
That is the real key, that link between buying and confidence.
    Representative Cummings. And to what extent is the housing 
market influencing job creation in the employment outlook?
    Commissioner Hall. Housing has not contributed for awhile. 
In fact, construction employment just has been flat throughout 
the recovery so far.
    Representative Cummings. Now you know I always ask you two 
questions that I always like to hear your answer to.
    One, if you were talking to the President right now, the 
President called you up and said: Hall, what's the situation? 
What would you--I mean, where are we right now? And what do you 
see for the future? What would you say?
    And the other one is, the other question I always ask you, 
as people look at this on C-SPAN and they are looking at you as 
the guru of these numbers, and they say, I am wondering what 
kind of field I ought to go into. What training should I do? 
Where should I go in the country to find a job? What would you 
say?
    Commissioner Hall. Sure. The first question, I think I 
would characterize it kind of as I did in my statement. It is a 
positive thing that unemployment rate, after having fallen for 
a percentage point, has held. We have not had any big movements 
in the labor force, so that fall in the unemployment rate has 
been from a reduction in the number of unemployed and an 
increase in the number of employed.
    Job growth at 216,000 is job growth, and that is a bit 
faster than it has been in prior months. So I would say on the 
whole this is a positive report. We have got growth in a number 
of industries.
    Going forward in terms of job growth, you know, two things 
come to mind. In fact, we do have--the one place where we do 
forecasts is we do 10-year projections on occupations where we 
try to give people an idea of exactly the answer to your 
question: Where are the jobs going to be in the next 10 years? 
And et cetera.
    And the thing that continues to jump out there is a lot of 
the service sector jobs, along with health care, et cetera, 
jump out as likely areas where we are going to have growth. And 
a lot of it is going to depend upon, interestingly, I think the 
demographics. Because one of the things people underestimate is 
that we have a certain number of jobs that are replacement 
jobs. As people retire, jobs are going to open up behind them.
    And that is an important thing in this. So it is not just 
identifying sectors where the number of jobs is growing, but 
also where you have the demographics such that people are 
retiring and you have replacements in there.
    But very broadly, like I say, services in health care jump 
out at you, especially health care with respect to some of this 
demographics that I am talking about jump out. And if you like, 
I can get you some more detail on our forecasts. If you like, 
next time I can bring some of those numbers with me.
    Representative Cummings. Just one thing you left out, and I 
thank you for your indulgence, Mr. Chairman. Geography.
    Commissioner Hall. Sure.
    Representative Cummings. I mean, if they are sitting there 
in a state where things are just really, really, really bad, 
where would they be looking based upon what you--where might 
they want to look in other areas of the country?
    Commissioner Hall. That is a good question. To be honest, I 
do not recall the regional aspect to that, but I can----
    Representative Cummings. You will get that to me?
    Commissioner Hall [continuing]. Yes.
    Representative Cummings. All right. Thank you, Mr. 
Chairman.
    [The prepared statement of Representative Cummings appears 
in the Submissions for the Record on page 80.]
    [Letter dated April 22, 2011, transmitting Commissioner 
Hall's response to Representative Cummings appears in the 
Submissions for the Record on page 81.]
    Chairman-designate Casey. Congressman, thanks very much. I 
know we are ready to wrap up, unless my colleagues have more 
questions.
    I just had one quick one, though, about the split by 
gender, men versus women, in the job growth. There is some 
sense that women make up a greater share of state and local 
government jobs, but I just wanted to ask you:
    Since February 2010, we have created about a million and a 
half jobs. I am wondering if you have the number of men versus 
women on that? Because I know men were way down in this recent 
report, but I forgot to ask that earlier.
    Commissioner Hall. Sure. Yes, the job growth, we added 
about 1.2 million jobs for men, and about 237,000 jobs for 
women. So it was pretty male-oriented in terms of the job 
growth.
    Chairman-designate Casey. Since February 2010?
    Commissioner Hall. That's right, since February 2010. That 
also was reflected, for what it's worth, in the job loss as 
well. Men lost jobs something like 3-to-1 compared to women.
    Chairman-designate Casey. Thanks very much. Unless Vice 
Chairman-designate Brady, or Members have any other questions, 
I think we are adjourned.
    Commissioner, thank you, and Dr. Horrigan and Mr. Rones, 
thank you very much for being here.
    We are adjourned.
    [Whereupon, at 10:51 a.m., Friday, April 1, 2011, the 
hearing of the Joint Economic Committee was adjourned.]

                       SUBMISSIONS FOR THE RECORD

[GRAPHIC] [TIFF OMITTED] T5918.001

    Prepared Statement of Keith Hall, Commissioner, Bureau of Labor 
                               Statistics
    Mr. Chairman and Members of the Committee:
    Thank you for the opportunity to discuss the employment and 
unemployment data we released this morning.
    In March, nonfarm payroll employment rose by 216,000, and private-
sector employment rose by 230,000. The unemployment rate was little 
changed at 8.8 percent; the rate has declined by one percentage point 
since November 2010. Since a recent low point in February 2010, nonfarm 
payroll employment has risen by 1.5 million. Private-sector employment 
rose by 1.8 million over the same period, an average of 138,000 per 
month. In March, job growth occurred in professional and business 
services, health care, leisure and hospitality, and mining. 
Manufacturing employment continued to trend up over the month.
    Professional and business services employment rose by 78,000 in 
March. This industry has added 692,000 jobs since a recent low point in 
September 2009. In March, employment in temporary help services rose by 
29,000. Temporary help services has added about a half million jobs 
since August 2009.
    Employment in health care continued to rise in March (+37,000). The 
increase was spread among several components, including ambulatory 
health care services (+18,000), hospitals (+10,000), and nursing and 
residential care facilities (+9,000). Since the start of the recent 
recession in December 2007, health care employment has risen by 
902,000, while total nonfarm employment has declined by 7.2 million.
    The leisure and hospitality industry added 37,000 jobs in March. 
Growth in food services and drinking places (+27,000) accounted for 
most of the increase.
    Within goods-producing industries, mining employment rose by 14,000 
in March, mostly due to an increase in support activities for mining 
(+9,000). Since a recent low point in October 2009, mining employment 
has risen by 96,000. Employment in manufacturing continued to trend up 
in March (+17,000). Factory job gains continued to be concentrated in 
durable goods, with over-the-month increases in fabricated metal 
products (+8,000) and machinery (+5,000). Construction employment 
changed little over the month.
    Employment in local government continued to trend down over the 
month (-15,000). This sector has lost 416,000 jobs since its employment 
peak in September 2008.
    Average hourly earnings of all employees on private nonfarm 
payrolls were unchanged in March at $22.87. Over the past 12 months, 
average hourly earnings have risen by 1.7 percent. From February 2010 
to February 2011, the Consumer Price Index for All Urban Consumers 
(CPI-U) increased by 2.2 percent.
    Turning to measures from the survey of households, the unemployment 
rate was little changed at 8.8 percent in March. The jobless rate has 
declined by one percentage point since November 2010. Over that period, 
unemployment declined by nearly 1.5 million, and employment rose by 1.4 
million, leaving the labor force nearly unchanged on net (after 
accounting for the population adjustment in January).
    In March, the labor force participation rate held at 64.2 percent, 
and the employment-population ratio, at 58.5 percent, was little 
changed. The number of long-term unemployed remained high at 6.1 
million, 45.5 percent of total unemployment. Over the month, the number 
of individuals who were working part time although they would have 
preferred full-time work was 8.4 million, down from 9.0 million a year 
earlier.
    In summary, nonfarm payroll employment rose by 216,000 in March, 
and the unemployment rate was little changed at 8.8 percent.
    My colleagues and I now would be glad to answer your questions.

    [GRAPHIC] [TIFF OMITTED] T5918.003
    
    [GRAPHIC] [TIFF OMITTED] T5918.004
    
    [GRAPHIC] [TIFF OMITTED] T5918.005
    
    [GRAPHIC] [TIFF OMITTED] T5918.006
    
    [GRAPHIC] [TIFF OMITTED] T5918.007
    
    [GRAPHIC] [TIFF OMITTED] T5918.008
    
    [GRAPHIC] [TIFF OMITTED] T5918.009
    
    [GRAPHIC] [TIFF OMITTED] T5918.010
    
    [GRAPHIC] [TIFF OMITTED] T5918.011
    
    [GRAPHIC] [TIFF OMITTED] T5918.012
    
    [GRAPHIC] [TIFF OMITTED] T5918.013
    
    [GRAPHIC] [TIFF OMITTED] T5918.014
    
    [GRAPHIC] [TIFF OMITTED] T5918.015
    
    [GRAPHIC] [TIFF OMITTED] T5918.016
    
    [GRAPHIC] [TIFF OMITTED] T5918.017
    
    [GRAPHIC] [TIFF OMITTED] T5918.018
    
    [GRAPHIC] [TIFF OMITTED] T5918.019
    
    [GRAPHIC] [TIFF OMITTED] T5918.020
    
    [GRAPHIC] [TIFF OMITTED] T5918.021
    
    [GRAPHIC] [TIFF OMITTED] T5918.022
    
    [GRAPHIC] [TIFF OMITTED] T5918.023
    
    [GRAPHIC] [TIFF OMITTED] T5918.024
    
    [GRAPHIC] [TIFF OMITTED] T5918.025
    
    [GRAPHIC] [TIFF OMITTED] T5918.026
    
    [GRAPHIC] [TIFF OMITTED] T5918.027
    
    [GRAPHIC] [TIFF OMITTED] T5918.028
    
    [GRAPHIC] [TIFF OMITTED] T5918.029
    
    [GRAPHIC] [TIFF OMITTED] T5918.030
    
    [GRAPHIC] [TIFF OMITTED] T5918.031
    
    [GRAPHIC] [TIFF OMITTED] T5918.032
    
    [GRAPHIC] [TIFF OMITTED] T5918.033
    
    [GRAPHIC] [TIFF OMITTED] T5918.034
    
    [GRAPHIC] [TIFF OMITTED] T5918.035
    
    [GRAPHIC] [TIFF OMITTED] T5918.036
    
    [GRAPHIC] [TIFF OMITTED] T5918.037
    
    [GRAPHIC] [TIFF OMITTED] T5918.038
    
    [GRAPHIC] [TIFF OMITTED] T5918.039
    
    [GRAPHIC] [TIFF OMITTED] T5918.040
    
    [GRAPHIC] [TIFF OMITTED] T5918.043
    
    [GRAPHIC] [TIFF OMITTED] T5918.044
    
    [GRAPHIC] [TIFF OMITTED] T5918.053
    
    Prepared Statement of Representative Kevin Brady, Vice Chairman-
                  designate, Joint Economic Committee

    I would like to congratulate Senator Casey on the Chairmanship of 
the Joint Economic Committee. I look forward to a productive working 
relationship with the Senator and to insightful hearings as we move 
forward in the new Congress.
    I also would like to welcome Dr. Hall and his staff again. You have 
guided this committee through many employment reports in the past. We 
appreciate the work you do and the explanations of the data you 
provide.
    Today's employment report shows some positive signs. Everyone wants 
the economy to improve, particularly the labor market, and we are glad 
for the increases in jobs we are seeing. But let us be frank, while 
there are job gains, the rate of job creation has not accelerated 
enough to keep up with population growth and encourage all the people 
who lost their jobs that they soon can find work again. It has been 21 
months since the recession ended and we are still down 7.2 million 
nonfarm payroll jobs from when it started. The unemployment rate at 
8.8%, of course, remains unacceptably high but also is not telling us 
the whole story, as I will explain shortly.
    There has been fundamental disagreement about the proper role of 
government in facilitating an economic recovery between Republicans and 
Democrats and that disagreement continues even now, 39 months after the 
last recession started. Democrats still do not want to change course.
    The federal spending spree has not been productive. It loaded up 
the Nation with debt so large that the focus of business managers, 
investors, foreign governments, international institutions, and the 
public at large now is on how the United States can meet its 
obligations. How high will taxes rise and what form will they take? Is 
the government resorting to money creation to ease its interest and 
principal payments? Is there a chance it will default on its 
obligations? These questions--incredible as it may seem--are being 
asked of the U.S. government. This is a big part of the reason why 
private investment and hiring have not resurged as they did in the past 
after similarly severe recessions.
    I want to show you a chart of payroll jobs. As you can see, we have 
not moved far from the bottom we hit shortly after the recession 
officially ended and the trajectory of job growth is far weaker than in 
past recoveries. I also want to show you a chart of the U.S. labor 
force participation rate. This chart shows the percentage of the 
population in the labor force as defined by the Bureau of Labor 
Statistics, and the percentage has shrunk. The chain of causation is 
clear: businesses fear the costs of an encroaching and intrusive 
government and are reluctant to expand sufficiently to create enough 
job openings for all of our workers; in turn, many people have left the 
labor force. The labor force now is smaller than 39 months ago, despite 
the fact that the working age population of 16 years and older has been 
increasing. This is happening in what used to be called the ``land of 
opportunity.''
    Republicans want to cut federal spending to relieve the pressure on 
the private economy. We must reassure the Nation and the world that the 
United States will bring its deficit and debt under control and that we 
will not burden the economy with stifling taxes either.
    Increasing taxes to fund the expansion of government depresses the 
private economy's growth prospects over the longer term, and that has 
chilling effects on businesses and consumers right now. The Keynesian 
argument that increased government spending boosts aggregate demand and 
that a spending reduction would hurt the recovery falls apart 
completely when investors, businesses, and consumers focus on the 
increased future size of government, the permanently larger share of 
resources it will claim, and the myriad ways in which it will hamper 
private economic growth.
    The tepid job and employment growth so long after the recession 
ended should convince everyone that high levels of federal spending are 
not what the economy needs. To reduce federal borrowing we must cut 
federal spending, not try to lock it in by raising taxes. The expected 
after-tax real rate of return drives business investment and hiring 
decisions. If we want businesses to offer hundreds of thousands of 
additional jobs month after month for years to come--which is what it 
will take to return the labor force and the unemployment rate to normal 
levels--then we must not burden expected returns with higher taxes, 
inflation, interest rates, and restrictive regulations. If the private 
economy grows, there will be more money for government to spend as 
well, but let us not put that cart before the horse.
    Dr. Hall, I look forward to hearing your testimony. 

    [GRAPHIC] [TIFF OMITTED] T5918.051
    
    [GRAPHIC] [TIFF OMITTED] T5918.048
    
    [GRAPHIC] [TIFF OMITTED] T5918.049
    
    [GRAPHIC] [TIFF OMITTED] T5918.050
    
    [GRAPHIC] [TIFF OMITTED] T5918.052
    
    [GRAPHIC] [TIFF OMITTED] T5918.041
    
    [GRAPHIC] [TIFF OMITTED] T5918.042
    
    [GRAPHIC] [TIFF OMITTED] T5918.002
    
        Prepared Statement of Representative Elijah E. Cummings
    Thank you, Mr. Chairman.
    I thank you for calling the first hearing of the Joint Economic 
Committee in the 112th Congress, to enable us to examine the current 
state of employment in America.
    I congratulate you, Senator Casey, on your new position as Chairman 
of this Committee, and look forward to your leadership.
    I also thank our witness, Dr. Keith Hall, for appearing before us 
today to help us examine the latest jobs report. It is good to see you 
as always.
    We learn from today's report that in March, nonfarm payrolls 
increased by 216,000 and the unemployment rate is 8.8 percent.
    These numbers build on the 881,000 private sector jobs created 
throughout the preceding six months, and the 1.5 million jobs created 
over the past year.
    When contrasted to an earlier period--January of 2008, through 
February of 2010, during which our economy shed 8.8 million jobs--it is 
clear that we have averted disaster.
    Yet, a lot of work remains before we can confidently say that our 
Nation is back on the path to prosperity and growth.
    Despite increased hiring, 13.5 million Americans remain unemployed. 
Almost a third of these individuals have been unable to find work for 
more than one year.
    Moreover, those without a high-school or college diploma continue 
to experience unemployment rates of 13.7 percent, and 9.5 percent, 
respectively. African-American workers remain unemployed at an 
unacceptably high rate of 15.5 percent.
    Certain critical factors continue to hamper job creation and 
economic growth, notably, consumer confidence, which has dropped 
considerably in recent months. However, the heaviest drag on our 
economy is the continuing foreclosure crisis--a crisis that is being 
driven by mortgage servicing companies that continue to put their 
bottom lines before American homeowners and the Nation's economic 
stability.
    Given this mixed picture, I believe that we are at a critical 
juncture in our Nation's journey.
    We avoided the iceberg that threatened in 2008, yet too many of our 
fellow Americans are floating adrift, or are even drowning in the 
recession's aftermath.
    To complicate matters, we are faced with a national debt that has 
doubled over the past decade.
    I believe that the path forward requires smart choices, and 
compromise.
    Nobel-Prize winning economist Joseph Stiglitz wrote in Politico 
earlier this week, ``the ballooning of the deficit  .  .  .  has 
understandably moved deficit reduction back to the center of the 
debate. But the best way to reduce the deficit is to put America back 
to work.''
    I agree with Mr. Stiglitz when he argues that we must invest in 
infrastructure, education, and technology; increase the progressivity 
of the tax system; and eliminate the corporate welfare hidden in our 
tax system and in the giveaways of our country's natural resources to 
oil, gas and mining companies.
    By making these smart choices, according to Mr. Stiglitz, our 
Nation can easily generate trillions in revenue while also creating a 
fairer society, a cleaner environment, and a more stable economy.
    Instead of making such investments, however, the House majority's 
fiscal year 2011 budget proposal cuts job training programs, Head 
Start, Pell Grants for college, and veterans housing programs.
    According to calculations by the Congressional Budget Office and 
economist Mark Zandi, the GOP's budget plan will reduce our projected 
FY2011 deficit by less than 4 percent, and yet is projected to cost our 
Nation 400,000 jobs through the end of 2011, and 700,000 jobs through 
the end of 2012.
    These cuts are ostensibly defended with the argument that tough 
times require tough choices and sacrifice.
    I would submit, however, that tough choices and sacrifice have 
already been borne by those who can afford them the least--the 
children, the elderly, the vulnerable, and America's middle-class.
    This is not the time for symbolism.
    This is the time for smart choices that will create jobs and once 
again make our Nation the land of opportunity for all Americans.
    Again, I thank the Chairman and our witness and I yield back. 

    [GRAPHIC] [TIFF OMITTED] T5918.045
    
    [GRAPHIC] [TIFF OMITTED] T5918.046
    
    [GRAPHIC] [TIFF OMITTED] T5918.047
    
  

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
